                                    NATIONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL




MEMORANDUM

DATE:        -         -
                    . -.
                            October
                           -------
                                    22,   1996-
                                     -- - - -     ..-   -   - -     ..-   - -   - - - - --




                     -
TO:                         Case File No. I96040025                                          2




FROM:                                                       tpvestigations Section

RE:                                 1-7
                             Close out -
ALLEGATION(S):

We received an allegation that             7 )                              was responsible for
mismanagement and fiscal irregularities for NSF grant no.                . The complainant also




                            -
alleged that Dr.                  the PI for the grant, was being paid from the grant during his
sabbatical from September 1994 to June 1995.

FINDINGS:

We reviewed all travel vouchers and payroll documents for this grant. We revie~edsalary account
information which showed that -was            paid solely fiom state funds during his sabbatical. In
addition, there is no evidence that Dr.-       received salary or travel payments off the grant during
this time. We found no other irregularities in the grant expenditures.

We interviewed Dr.           on the telephone, who said that he continued to work on the grant
project during his sabbatical wen though he was not being paid off the grant. He said that Drs.
                      were responsible for the daily operations of the grant while he was away. Dr.
          a &-PI on the grant, confirmed this information.

NSF had not been satisfied with the progress on this grant and had temporarily frozen the grant
funds. The NSF program officer conducted a site visit in September 1996 and reported that the PIS
were making progress and restored the funding.
                       We have found no evidence to support the allegations concerning misappropriation of grant funds.
                       The NSF program staff has responded to the management problems with this grant. Therefore,
                       there is no reason to continue with this investigation. This case is closed.



                      In July 1997, we received another allegation regarding misuse of grant funds. Specifically, the
                      complainant said that people were buying t-shirts with grant funds. The complainant also said that
                   -as           no longer the PI for the grant.

!                      We called the complainant several times, but he did not return any of our messages. We
    -- - ,. .   . ..   ..--
                        .-
I
                       mterwewed-the prografi O ~ ~ ~ Cagain, who -.iaid-th-ti&-decided--the-goals-ol-the
                               ~




                                                        CT                                                -project--would.---------
                       be better achieved without him, and therefore stepped down and is currently working on other
                       projects.

                       The program officer received a quarterly report in July 1997 and said that she was very pleased with
                       the progress on the grant, and that everything appeared to be going well.
